s'

Supreme Court, U.S.
FILED

A
"

SEP 2 2 2020

20-7152

s.

OFFICE OF THE CLERK

NO.:

IN THE

SUPREME COURT OF THE UNITED STATES

Brian Hook - Petitioner;
v.

State of Indiana - Respondent;

PETITION FOR WRIT OF CERTIORARI

t

•

!

Attorney for Petitioner:

ORIGINAL

Brian Hook #211604
Appellant / Pro se
Pendleton Correctional Facility
4490 W. Reformatory Road
Pendleton, Indiana. 46064-9001
Petitioner / pro se

l
■'A' \

'

>

QUESTIONS PRESENTED
Whether the Indiana Courts erred denying Petitioner was
1.
deprived of effective assistance of counsel in violation of the Fifth,
Sixth, and Fourteenth Amendments to the United States Constitution
when counsel and the Court misadvised/misled him concerning this
conviction being used to support the criminal habitual offender in the
future under I.C. 35-50-2-8 rendering Petitioner’s guilty plea illusory
and thus not entered into knowingly, intelligently, and voluntarily and
defense counsel’s ineffectiveness during sentencing?

11

\

LIST OF PARTIES
1^1 All parties appear in the caption of the case on the cover page.
I I All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this petition is
as follows:

iii

V

TABLE OF CONTENTS
Opinions Below.

1

Jurisdiction.

2

Constitutional and Statutory Provisions Involved,

3

Statement of the Case,

4

Reasons for Granting the Writ,

6
13

Conclusion.
INDEX TO APPENDICES
Appendix A - Indiana Supreme Court Petition to Transfer Denial

Appendix B - Indiana Court of Appeals Affirming post-conviction court’s denial

4 >»

IV

\

TABLE OF AUTHORITIES CITED
PAGE NUMBER:

CASES:
Glover v. United States, 531U.S. 198, 203 (2001)
Lafler v. Cooper, 132 S. Ct. 1376, 182 L. Ed. 2d 398 (2012)
Strickland v. Washington, 466 U.S. 668, 687-88 (1984)
White v. State, (Ind. 1986), 497 N.E.2d 893, 906

12
6, 12
6, 12, 13
10, 11

PAGE NUMBER:

STATUTES & RULES:
Indiana Code 35-35-1-2

7,9

Indiana Code 35-50-2-8

4, 6,7

v

>

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
The Petitioner respectfully prays that this Honorable Court issue a writ of certiorari to
review the judgment below.
OPINIONS BELOW
I I For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
and isI I reported at________________________________________

to the petition

or,

I I has been designated for publication but is not yet reporter; or,
I I is unpublished.
The opinion of the United States district court appears at Appendix
and is-

to the petition

or,

I I reported at
I I has been designated for publication but is not yet reporter; or,
I I is unpublished.

1X1 For cases from state courts:
The opinion of the highest state court to review the merits appears at Appendix A to the
petition and isI I reported at

; or,

I I has been designated for publication but is not yet reporter; or,
1X1 is unpublished.

:i.K

The opinion of the Indiana Court of Appeals appears at Appendix B to the petition and
1S-

I I reported at________________________________________
I I has been designated for publication but is not yet reporter; or,
1X1 is unpublished.

1

or,

s

JURISDICTION
I I For cases from federal courts:
The date on which the United States court of appeals decided my case was_________
A copy of that decision appears at Appendix___ .
I I No petition for rehearing was timely filed in my case.
I I A timely petition for rehearing was denied by the United States court of appeals on
, 20__, and a copy of the order denying
the following date:________ ;
rehearing appears at Appendix
I I An extension of time to file the petition for a writ of certiorari was granted to and
20__, in Application
including
20__, on
No.__, and a copy of the. order granting said extension appears at Appendix
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).
[X] For cases from state courts:
The date on which the highest state court decided my case was________
A copy of that decision appears at Appendix A.

, 20_.

I I No petition for rehearing was timely filed in my case.
I I A timely petition for rehearing was denied on the following date:___
20__, and a copy of the order denying rehearing appears at Appendix
I I An extension of time to file the petition for a writ of certiorari was granted to and
including
20__, in Application
20__, on
No.__, and a copy of the order granting said extension appears at Appendix
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

*P!

2

CONSTITUTIONAL PROVISIONS AND STATUTES

Amendment 5
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a
presentment or indictment of a Grand Jury, except in cases arising in the land or naval forces, or
in the Militia, when in actual service in time of War or public danger; nor shall any person be
subject for the same offence to be twice put in jeopardy of life or limb; nor shall be compelled in
any criminal case to be a witness against himself, nor be deprived of life, liberty, or property,
without due process of law; nor shall private property be taken for public use, without just
compensation.

Sixth Amendment
In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial, by
an impartial jury of the State and district wherein the crime shall have been committed, which
district shall have been previously ascertained by law, and to be informed of the nature and cause
of the accusation; to be confronted with the witnesses against him; to have compulsory process
for obtaining witnesses in his favor, and to have the Assistance of Counsel for his defense.

Amendment 14
Sec. 1. [Citizens of the United States.] All persons bom or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of the United States and of the State wherein
they reside. No State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any person of life, liberty,
or property, without due process of law; nor deny to any person within its jurisdiction the equal
protection of the laws.

3

t

.

>

STATEMENT OF THE CASE

1. The State of Indiana filed Information in this case charging Petitioner under
Cause No.: 89D03-1112-FD-00518. Under Cause No.: 89D03-1112-FD-00518 Petitioner
entered into a (Combined Guilty Plea) for: Probation Violation from case Number 10-FD-121 for
OWI; OWI under Cause number FD-516 and OWI under Cause number FD528.
2. On March 13, 2012 a sentencing hearing was held and Petitioner was sentenced to
Probation Violation from case Number 10-FD-121, 630 days; Cause number FD-516, 9 months;
and Cause number FD528, 12 months.
3. Petitioner filed ho appeal.
4. Petitioner was cftatged under Cause No.: 89C01-1312-FA-34 for Burglary, Class
B felony and the Habitual Offender. On February 26, 2015 Petitioner was sentenced to Burglary,
Class B felony, Habitual Offender Twenty (20) years enhance by twenty (20) years using the
conviction from this present case under Cause No.: 89D03-1112-FD-00518 to support the
habitual offender enhancement and Battery, Class A Misdemeanor, One (1) years.
Total executed sentence of Forty-One (41) years.
5. Petitioner filed d pBtition for post-conviction relief wherein he alleged:
(a) Whether the Petitioner was deprived of effective assistance of
counsel in violation of the Fifth, Sixth, and Fourteenth Amendments
to the United States Constitution and Article One, Sections Twelve
and Thirteen of the Indiana Constitution when counsel and the Court
misadvised/misled him concerning this conviction being used to
support the criminal habitual offender in the future under I.C. 35-502-8 rendering Petitioner’s guilty plea illusory and thus not entered
into knowingly, intelligently, and voluntarily and defense counsel’s
ineffectiveness during sentencing?

4

>

6. Petitioner had Post-Conviction Relief evidentiary hearing on September 13, 2019.
Petitioner subpoenaed the following witnesses: Kaarin Lueck, 301 East Main Street, Richmond,
IN 47374.
7.

The Court Ordered the parties shall submit proposed finding of facts and

conclusions of law on October 13 j 2019.
'i

8. Petitioner filed a Motion for Post-Conviction Court to Take Judicial Notice Of
Own Records and To Order The Clerk To Have The Record From Direct Appeal Sent To The
Post-Conviction Court As Evidence In These Proceedings herein to prove his claims. The Court
granted this motion.
9. Petitioner Motion for Continuance to file his Finding of Facts and Conclusions of
Law granted setting the new dafe'of November 13, 2019 for the Finding of Facts and
Conclusions of Law to be file. I*/k
10. On January 14, 2020 the Post-Conviction Court denied Post-Conviction Relief
and Appellant now appeals.

5

>

REASONS FOR GRANTING THE WRIT
The Indiana Courts erred in denying Petitioner was deprived of effective assistance of
counsel in violation of the Fifth, Sixth, and Fourteenth Amendments to the United States
Constitution when counsel and the Court misadvised/misled him concerning this conviction
being used to support the criminal habitual offender in the future under I.C. 35-50-2-8 rendering
Petitioner’s guilty plea illusory and thus not entered into knowingly, intelligently, and voluntarily
and defense counsel’s ineffectiveness during sentencing.
In Lafler v. Cooper, 132 S. Ct. 1376, 182 L. Ed. 2d 398 (2012), our United States
Supreme Court recently stated:
Defendants have a Sixth Amendment right to counsel, a right that
extends to the plea-bargaining process. Frye, ante, at 8; see also
Padilla v. Kentucky, 559 U.S. —,—(2010)(slip op., at 16); Hill,
supra, at 57. During the plea negotiations defendants are “entitled
to the effective assistance of competent counsel.” McMann v,
Richardson, 397 U.S. 759, 771 (1970). In Hill, the Court held “the
two-part Strickland v. Washington tests applies to challenges to
guilty pleas based on ineffective assistance of counsel.” 474 U.S.,
at 58. The performance prong of Strickland requires a defendant to
show “’that counsel’s representation fell below an objective
standard of reasonableness.’” 474 U.S. 57 (quoting Strickland, 466
U.S., at 688).
Petitioner’s defense counsel’s performance was deficient by falling below an objective
standard of reasonableness based-:on professional norms and counsel’s performance prejudiced
•

,

V

. ••

the defendant so much that “there is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have been different. Strickland v.
Washington, 466 U.S. 668, 687-88 (1984).
First, Petitioner’s defense counsel, Kaarin Lueck, did not advise him by pleading guilty
the conviction could be used to support a future criminal habitual offender charge under I.C. 3550-2-8 in further proceedings not did she bring to the Court’s attention it did not make this
J CI C 1:-

6

advisement after warning Petitioner that it qualified for a future habitual traffic offender (Guilty
,Plea Tr. 9, L. 24 to tr. 10, L. 5) and habitual substance abuse offender. (Guilty Plea Tr. 9, L. 1922). Although I.C. 35-35-1-2(3) mandates that the judge must only inform the defendant a “of
the maximum possible sentence and minimum sentence for the crime charged and any possible
increased sentence by reason of the fact of a prior conviction or convictions, and any possibility
of the imposition of consecutive sentences” which the Court did, however, the judge in this case
then went outside of the statute adding a warning about the “traffic offender” and “substance
abuse offender” habitual(s) but did not warn of the criminal habitual under I.C. 35-50-2-8
misleading Petitioner this conviction would not qualify for it in the future. In its denial of
Petitioner’s request for Post-Conviction Relief, the Court stated, “The Court is required to
comply with I.C. 35-35-1-2 before accepting a guilty plea. This Court in this matter complied
with all the requirements of the statute before accepting Petitioner’s guilty plea and admission to
the probation violation.” (Order, p. 2,

2). The Indiana Court of Appeals also stated the judge

followed I.C. 35-35-1-2 and was not required to warn about the habitual possibility. The Court
of Appeals did not address the judge went outside of I.C. 35-35-1-2 misleading Hook. Appellant
agrees the Court did comply with the statute but then added to it giving additional warnings
about the “traffic offender” and “substance abuse offender” habitual(s) but did not warn of the
criminal habitual under I.C. 35-50-2-8 misleading Hook this conviction would not qualify for it
in the future.
t:

During the SeptemberT3, 2019 evidentiary hearing, Ms. Lueck testified when asked:
Q. When the judge informed me this guilty plea and sentence can
be used for future habitual traffic offender and habitual substance
abuser, but failed to inform me about the criminal habitual, wasn’t
it your job to bring this to the Court’s attention to inform me?

7
fs;

A. The transcript shows both habitual offender, habitual substance
offender and habitual traffic violator.
Q. As an attorney, if not informed about the criminal habitual,
after being the habitual traffic and habitual substance abuser,
would it be misleading - would it be misleading (indiscernible).
A. If it was true it would be misleading, but you were advised of
the habitual consequences.
(PCRTr. 6, L. 10-20)
During Cross-examination of Ms. Lueck by the Prosecutor Ms. Fantetti in an attempt to
prove the Guilty Plea Hearing transcript prove Hook was advised of the criminal habitual the
following occurred:
Q: And then Magistrate Lueck, you also talked about the Judge
did advise Mr. Hook of the habitual.
MS. FANTETTI: May I approach the Witness?
THE COURT: Yes.
Q. I’m going to show you - this is the transcript from that
sentencing hearing. Could you read me up to here. The
highlighted A. So you want me to start here?
Q. -part. Yes-:please.
THE COURT: Which page are you referring to?
THE WITNESS: I’m on page nine (9), starting at line nine (9).
THE COURT: Page nine (9), line nine (9)?
THE WITNESS: Yep.
THE COURT: Okay.
Q. “The Court: PD’d you understand by pleading guilty, Brian, on the
criminal cases, you are creating a permanent adult felony record for
yourself?” “The Defendant: Yes.” “The Court: Do you understand
that this record can be counted against you in the future, causing you
to receive a worst sentence than you would receive if you did not have
8

these convictions in your record?” “The Defendant: Yes, Sir.” “The
Court: Because these are substance offenses, Brian, they can very
specifically be counted against you in the future to trat you as a
habitual substance offender, Sir. Do you understand that?” “The
Defendant: Yes, Sir.” Do you want me to stop there?
Q. Is that how you remember that hearing?
A. Yes.
Q. And again, that’s telling Mr. Hook that he could be treated A. As a habitual offender, as well as a habitual substance offender.
(PCRTr. 12, L. 1 -PCRTr. 13, L. 1)
The above quoting of transcript from the guilty plea hearing does not reflect as the
prosecutor and defense counsel twisted it to reflect that Mr. Hook could be treated as a habitual
offender and, as well as a substance offender. When the Court stated “be counted against you as
a habitual substance offender,” the prosecutor cannot then separate this term into two (2) parts:
1) Habitual offender and 2) habitual substance offender. Nowhere in this transcript did the Judge
state, 1) Habitual Offender, 2) Habitual substance Offender and 3) Habitual Traffic offender.
When the Judge stated the following it was not concerning the habitual offender, but the
possibility of an enhanced advisory sentence for having a prior criminal history as an aggravator
under I.C. 35-35-1-2(3): “The Court: Do you understand that this record can be counted against
you in the future, causing you to receive a worst sentence than you would receive if you did not
have these convictions in your record?” “The Defendant: Yes, Sir.” The Petitioner understood
this advisement to mean a future sentence could be raised from the advisor for example a Level 3
felony of advisory nine (9) years to a maximum of sixteen (16) years. The transcript clearly does
not reflect Hook was advised of the criminal habitual offender as the prosecutor and Ms. Lueck
attempted to prove it did.

9

>

Further, during the September 13, 2019 evidentiary hearing, Ms. Lueck testified when
asked if she informed Hook about the criminal habitual that “I have notes from our first
interview that indicates you were advised of the habitual possibilities, and that’s in the case file”
(PCR Tr. 8, L. 15-16). During cross-examination the prosecutor discussed with Ms. Lueck her
case file mentioning the advisement of the habitual as follows:
Q. Okay. And you mentioned you do have notes from your first
meeting with Mr. Hook?
A. Correct.
Q. Okay. And there is and indication in that - on paper, that you
talked about the habitual?
A. Correct. .. .whether they’re habitual eligible.
(PCR Tr. 10, L. 14-16,21-22)
When the prosecutor moved to enter this form into evidence Hook objected stating, “I
object - Your Honor, this is very vague. It just says habitual definitions and it has a Y next to it”
i

\ '> ;

(PCR Tr. 11, L. 16-17). This form does not specify what about the habitual was explained to
Hook and he maintains it was not the criminal habitual. This sheet was vague and did not reflect
which habitual definitions were covered and their consequences if this guilty plea was accepted;
nor did this form explain if Ms: Leuck corrected the misinformation the judge had concerning the
habitual offender. Petitioner is now suffering present penal consequences of a twenty (20) years
habitual enhancement due to thiS prior conviction being used to support the criminal habitual
offender in Cause No. 89C01-1312-FA-000034, the sentence he is now serving.
In White v. State, (Ind. 1986), 497 N.E.2d 893, 906, it states, “Defendants who can prove
that they were actually misled by the judge, the prosecutor, or defense counsel about the
choices before them will present colorable claims for relief. Petitioner has proven above he was
misled by the judge concerning1 the possible future criminal habitual charge and defense counsel

10

failed to correct it. It is not in the transcript he was advised as improperly testified to by Ms.
Lueck. To decide a claim that a piea was not made voluntarily and intelligently, a court must
review all the evidence before the court which heard his post-conviction petition, including the
transcript of the petitioner's original sentencing, and any plea agreements, plea hearing
transcripts or other exhibits which are a part of the record." White v. State at 905 (Ind. 1986).
Petitioner clearly understood he could face a future habitual traffic offender carrying a
suspension of license and habitual substance abuse offender facing to an additional fixed term of
at least three (3) years but not more than eight (8) years imprisonment. Petitioner has proven he
was not properly advised and had he known was also facing the Criminal Habitual Offender
facing an additional ten (10) to thirty (30) years, he would not have chose to plead guilty. The
judge was not required to explain the possible habitual enhancements, however, when he did
address them and failed to cover them all he misled this Petitioner that he concerning facing the
criminal habitual and he did end up receiving an additional twenty (20) years in a later sentence
as a result (sentence he is now serving). Nothing from the September 13, 2019 evidentiary
hearing proves Petitioner was proper advised by the judge or his attorney and therefore his guilty
plea must be vacated.
Second, Petitioner’s defense counsel, Kaarin Lueck, did not effectively argue sentencing
in this plea agreement after the judge stated concerning the two new charges:
There are circumstances where I am allowed to suspend all or part
of a felony sentence. There are other circumstances where I may
reduce a Class D Felony to a Class C Misdemeanor, for which the
maximum jail sentences is a year, the maximum fine is $5,000.00,
the Countermeasure Fee and driver’s license suspension are
unchanged if it’s reduced to a misdemeanor. (Guilty Plea Tr. 5, L.
1-7).
The judge further stated:

11

On the probation revocation case there are three (3) options, Brian.
I could extend your probation, I could change the rules under
which you are supervised, and I can also order you to serve some
or all of the originally suspended sentence in prison. In your case
that would be six hundred and forty (640) days. (Guilty Plea Tr. 5,
L. 9-14).
Later in arguing sentencing to the judge defense counsel did request for probation to be
re-instated on the probation violation case, however, in arguing the two new criminal charges
defense counsel failed to request or argue for reducing the D felonies to Class A misdemeanors
due to the mitigating circumstances in this case. The judge had stated this option to reduce
u :-'(Guilty Plea Tr. 5, L. 1-7) yet he1 was not encouraged to do it; defense counsel ineffectively
argued for the minimum for Class D felonies instead. During the September 13, 2019 evidentiary
hearing Ms. Leuck did not have an answer that explained a strategy for not arguing for the
minimum except she didn’t believe Hook was eligible for a misdemeanor but when asked, Q.
“Isn’t failing to argue for the best possible sentence ineffective representation? A. If that was
true.” (PCR Tr. 7, L. 18-20). In Lafler, supra, it further states, “Even though sentencing does
hot concern the defendant’s guilt df innocence, ineffective assistance of counsel during a
« .

‘sentencing hearing can result in'Strickland prejudice because ‘any amount of [additional] jail
time has Sixth Amendment significance.” Quoting Glover v. United States, 531U.S. 198, 203
(2001).
In affirming this appeal, the Indiana Court of Appeals stated “Hook’s argument fails
because he has not demonstrated that he would, in fact, have been eligible for this sentencing
i f ■;

d

option.” (App. Opinion, p. 12 [T5])'. Appellant would point out again it was the sentencing judge
who stated Hook was eligible as follows:
There are circumstances where I am allowed to suspend all or part
of a felony sentence. There are other circumstances where I may
reduce a Class D Felony to a Class C Misdemeanor, for which the
12
!

■ ■

A

maximum jail sentences is a year, the maximum fine is $5,000.00,
the Countermeasure Fee and driver’s license suspension are
unchanged if it’s reduced to a misdemeanor. (Guilty Plea Tr. 5, L.
1-7).
The Court of Appeals was'erred and Petitioner’s defense counsel’s performance was
(

j,'

deficient by falling below an objective standard of reasonableness based on professional norms
and counsel’s performance prejudiced the defendant so much that “there is a reasonable

probability that, but for counsel’s unprofessional errors, the result of the proceeding would have
been different. Strickland v. Washington, 466 U.S. 668, 687-88 (1984). Effective and zealous
representation in arguing sentencing would have created a different outcome.
O$ v

CONCLUSION

The petition for a writ of certiorari should be granted. The Indiana Courts has departed
from clearly established United States Supreme Court precedent concerning Petitioner being
deprived of effective assistance of counsel in violation of the Fifth, Sixth, and Fourteenth
Amendments to the United States Constitution and Petitioner’s guilty plea must be vacated and
this case remanded for further proceedings and for any and all other just relief this Court deems
necessary.
Executed on:

Odhiar' ‘W, 2020,

Respectfully submitted,

Brian Hook
Petitioner / pro se

V,'

13

